<html>
<title> - AFTER THE WITHDRAWAL: THE WAY FORWARD IN AFGHANISTAN AND PAKISTAN (PART I)</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
AFTER THE WITHDRAWAL: THE WAY FORWARD IN AFGHANISTAN AND PAKISTAN (PART I)

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                AND THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 19, 2013

                               __________

                           Serial No. 113-21

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
80-120                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0a6d7a654a697f797e626f667a2469656724">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida

                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
LUKE MESSER, Indiana                 WILLIAM KEATING, Massachusetts


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Seth G. Jones, Ph.D., associate director, International Security 
  and Defense Policy Center, RAND Corporation....................     8
Kimberly Kagan, Ph.D., president, Institute for the Study of War.    22
Mr. Peter Bergen, director, National Security Studies Program, 
  The New America Foundation.....................................    26
Daniel S. Markey, Ph.D., senior fellow for India, Pakistan, and 
  South Asia, Council on Foreign Relations.......................    52

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Seth G. Jones, Ph.D.: Prepared statement.........................    10
Kimberly Kagan, Ph.D.: Prepared statement........................    24
Mr. Peter Bergen: Prepared statement.............................    28
Daniel S. Markey, Ph.D.: Prepared statement......................    54

                                APPENDIX

Hearing notice...................................................    82
Hearing minutes..................................................    83
Questions submitted for the record by the Honorable Scott Perry, 
  a Representative in Congress from the Commonwealth of 
  Pennsylvania...................................................    84


                     AFTER THE WITHDRAWAL: THE WAY
                       FORWARD IN AFGHANISTAN AND
                           PAKISTAN (PART I)

                              ----------                              


                        TUESDAY, MARCH 19, 2013

                     House of Representatives,    

          Subcommittee on the Middle East and North Africa and

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committees met, pursuant to notice, at 1 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the Subcommittee on the Middle East and 
North Africa) presiding.
    Ms. Ros-Lehtinen. This joint subcommittee meeting will come 
to order. After recognizing myself, Chairman Chabot, Ranking 
Member Deutch, and Ranking Member Faleomavaega for 5 minutes 
each for our opening statements, we will then hear from our 
witnesses and without objection, the witnesses' prepared 
statements will be made a part of the record. Members may have 
5 days to insert statements and questions for the record, 
subject to the length limitation in the rules.
    Before I begin my remarks, I would like to convey my 
deepest condolences to the family and friends of U.S. Army 
Captain Andrew Michael Pederson-Keel of South Florida who was 
killed in action on March 11, 2013 while serving our country in 
Afghanistan. Our thoughts and prayers are with his family.
    The Chair now recognizes herself for 5 minutes. Last month 
in a State of the Union address to the nation, President Obama 
announced that the United States will be drawing down our 
forces in Afghanistan by 34,000 troops over the coming year and 
projecting that our military presence in Afghanistan will be 
over before the start of 2015. The President also announced 
that our forces will transition into a support role, handing 
the reins over to the Afghanistan National Security Forces, 
ANSF, while our focus will be mainly on training and equipping 
these forces.
    Reports indicate a remaining residual force of 3,000 to 
9,000 troops, while many military commanders continue to push 
for a more robust role, including the Commander of U.S. Central 
Command, who recommended that nearly 14,000 troops be left 
behind post-2014. The way forward may be debatable, but we 
should agree that the decision must not be made for political 
reasons. Leaving before stability is assured would not only 
unravel all that we have worked so hard to accomplish in 
Afghanistan, but it would undermine the efforts of our men and 
women who have served so bravely and have sacrificed so much in 
Afghanistan, like the aforementioned Captain Andrew Pederson-
Keel.
    Without the proper infrastructure, training, and support 
from U.S. and international forces, Afghanistan runs the risk 
of plunging into chaos. The national security interests of the 
United States, and indeed of our allies, are at stake because 
of the real threat that the Taliban could retake power and al-
Qaeda could reestablish a safe haven from which to conduct 
operations.
    Many allies are worried that the drawdown could lead to a 
significant increase in violence and terrorist-related 
activities that can further destabilize the conflict. Most see 
Karzai as an unpredictable leader, yet they are concerned about 
his possible successor. The U.S. must hold Karzai accountable 
for the lack of transparency, for the corruption problems that 
need to be corrected, to ensure a successful transition to a 
viable successor. Afghan's elections are within a year and 
electoral reforms are needed to ensure a free, fair, and 
transparent election that protects human rights and respects 
minority groups.
    Karzai's recent actions reveal that he is attempting to 
play a dangerous, but calculated game, aimed at appeasing 
certain Afghan factions by vilifying the United States. Karzai 
accused us of working hand in hand with the Taliban to spread 
violence in Afghanistan. These inflammatory comments put the 
lives of our servicemen and -women in danger.
    The Commander of the International Security Assistance 
Forces and U.S. Forces Afghanistan warned our troops that 
``Karzai's remarks could be a catalyst for some to lash out 
against our forces. He may also issue orders that put our 
forces at risk.''
    Karzai yearns to be known as the one who kicked out the 
foreign invaders and he fears that he will suffer the same fate 
as previous Afghan leaders before him who were overrun or 
executed by the Taliban. This would open the floodgates from 
Pakistan, a country which has long been an insurgency sanctuary 
for the Taliban, al-Qaeda, the Haqqani Network and other 
extremist elements. Pakistan must do more to prevent extremists 
from using this area as a staging point for attacks against the 
United States and our allies in Afghanistan.
    We must make an honest assessment of our relationship with 
Pakistan and judge its willingness and capacity to work with us 
in order to ensure that Afghanistan does not succumb to the 
Islamist and extremist threats. Pakistan must also do its part 
by eliminating its ties to foreign terrorist organizations. We 
must evaluate our relationship with Islamabad if we are to 
continue to provide billions of dollars of taxpayer money to 
Pakistan. Pakistan's stability remains a vital U.S. national 
security interest and our relationship is paramount in order to 
fight regional and global terrorism, to stabilize Afghanistan 
and to protect long-term national security interests. Thank 
you.
    I will now turn to my ranking member, my friend, my Florida 
colleague, Congressman Ted Deutch.
    Mr. Deutch. Thank you, Madam Chairman, and thanks to our 
witnesses for testifying today. And before I begin my remarks I 
would like to associate myself with the chairman expressing my 
deepest sympathy to the friends and family of South Florida 
native and U.S. Army Captain Andrew Pederson-Keel. Our thoughts 
and prayers are with his family.
    After almost 12 years of war in Afghanistan and 2,177 
American casualties, there is strong opposition among the 
American public to continue U.S. engagement there. Separately, 
there continues to be deep frustration regarding the state of 
our relationship with Pakistan. But we are working in an area 
where there are many daunting challenges and there are no easy 
answers.
    In Afghanistan, the economy is dependent on foreign aid, 
yet corruption is rampant and too often aid is misused. In 
Pakistan, there are numerous insurgent safe havens that are 
being used to train and rearm the Taliban. And when you factor 
in sectarian tensions and regional anti-Americanism, you 
understand why so many Americans want to end U.S. involvement 
in Afghanistan and cut off billions in aid to Pakistan. But is 
now the time to fundamentally alter our strategy of a 
responsible troop drawdown in Afghanistan?
    Over the next year, the President will be withdrawing 
another 34,000 troops. That is now nearly 2.5 million American 
men and women who served our country in Iraq and Afghanistan 
and have returned to their families and our communities. We 
have an obligation to these men and women to work in a 
bipartisan manner to get our Veterans' benefits and care in a 
timely manner, to find employment, and to address the mental 
health issues necessary to stop the rising suicide rate. The 
sacrifices of those who have served and are returning from 
Afghanistan have helped contribute to numerous sustainable 
goals there. There are positive stories to tell.
    Under President Obama's leadership, we refocused our 
efforts and have now largely accomplished his goal of 
dismantling the core of al-Qaeda and ensuring that it can no 
longer use Afghanistan and the border areas of Pakistan to plan 
or conduct terrorist attacks against the United States 
homeland. Although the Taliban remains an active presence in 
Afghanistan, al-Qaeda in Afghanistan has been decimated which 
is crucial to our national security. And it is important to 
distinguish that although the Taliban has a reprehensible 
history in Afghanistan, it was al-Qaeda that provided a direct 
threat to our homeland.
    In addition, largely due to U.S. international aid in 
Afghanistan, since 9/11, the maternal mortality rate has 
declined by 80 percent. Access to basic health services is 
available to more than 60 percent of Afghans, up from 9 percent 
in 2001. And life expectancy has increased from 44 years to 60 
in the past decade. There have also been tremendous gains in 
gender equality. Today, one third of Afghanistan's 8 million 
students are female. Women now hold more than a quarter of the 
seats in the Parliament. By the end of this year, at least 30 
percent of government workforce will be women. In spite of all 
of the challenges Afghanistan is facing, an Asia Foundation 
poll found that the majority of Afghans think that their 
country is on the right track.
    Now if we are going to commit U.S. personnel and resources 
to Afghanistan under the enduring Strategic Partnership 
Agreement, the Afghan Government must take the necessary steps 
to become a viable and stable democracy. Significantly improved 
cooperation with the Pakistani Government is critical to the 
successful drawdown of troops and long-term stability in 
Afghanistan. Despite years of frustration and mistrust, 
recently exemplified by Pakistan's decision to move forward 
with a natural gas pipeline with Iran, we do share some core 
interests with Pakistan. We want national reconciliation in 
Afghanistan and we do not want Afghanistan to be embroiled in 
another civil war. These are areas of agreement to work 
together on. But Pakistan must do more to ensure that safe 
havens along the border are rooted out.
    If any American troops are going to remain in Afghanistan, 
President Karzai must create an environment that enables U.S. 
forces to assist and advise Afghan National Security Forces in 
securing their country. This means negotiating a bilateral 
security agreement that provides U.S. troops with necessary 
protections. President Karzai must also recognize that his 
recent inflammatory anti-American rhetoric seriously harms our 
efforts to create and ensure stability and security in 
Afghanistan.
    The most important indicator for future stability in 
Afghanistan is the peaceful transfer of political power that 
will occur after the Presidential elections scheduled in April 
2014. As we all know, the 2009 elections were marred by serious 
allegations of widespread fraud, resulting in the nullification 
of nearly 20 percent of the votes cast. If Afghanistan is going 
to progress as a sustainable democracy, it must start with free 
and fair elections in April 2014.
    As I said at the outset, these are difficult challenges and 
there are no easy answers. After 12 years of war and over 
200,000 American casualties, we owe it to the Americans and 
those Afghans who have sacrificed so much to get this right. We 
went into Afghanistan to protect our own national security and 
going forward, this must continue to be about U.S. national 
security. I look forward to discussing with the witnesses the 
best ways for the United States to secure our long-term 
security interests by helping Afghanistan move forward with its 
pursuit of a stable democracy and I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch. We will 
now hear from the subcommittee chair and ranking member of Asia 
and the Pacific Subcommittee, starting with Chairman Chabot.
    Mr. Chabot. Thank you, Madam Chair, and thank you for 
calling this important joint hearing with the Subcommittee on 
Asia and the Pacific. I am pleased to join your efforts to 
discuss the implications of the U.S. withdrawal from 
Afghanistan and the critical role Pakistan plays in 
successfully achieving a stable, peaceful, and independent 
Afghanistan.
    The Obama administration's decision to expedite the U.S. 
withdrawal from Afghanistan poses a strategic risk to the 
stability and security interests of South Asia. The President's 
announcement in January that an additional 34,000 U.S. troops 
will leave Afghanistan by February 2014 threatens to plunge the 
region into a state in which terrorists will once again thrive. 
There is no clarity on the exact withdrawal plan or what a 
post-2014 Afghanistan might look like. With so many outstanding 
variables in play, I think a hasty retreat is unwise.
    In November 2011, the Middle East and South Asia 
Subcommittee, which I then chaired, held a hearing on U.S. 
policies in Afghanistan and Pakistan in which it was discussed 
how, at that time, it was unclear what the plan entailed, when 
it would occur, how it was expected to play out, and what the 
administration hoped to accomplish beyond the 2014 withdrawal 
date. Now, a year and a half later, we know that Afghan forces 
will start taking the lead this spring and U.S. forces will 
transition to a supporting role.
    We are also told now that U.S. troops will remain in 
Afghanistan after 2014 and focus on training and 
counterterrorism, but we do not know how many troops. A 
continuing U.S. presence in Afghanistan, however, rests on the 
finalization of the Status of Forces Agreement which President 
Obama says he hopes is completed by the end of the year.
    Following Defense Secretary Hagel's visit to Afghanistan 
earlier this month, that may or may not happen.
    Former Ambassador Ryan Crocker emphasized nearly 2 years 
ago that the U.S. needed to focus on ``strategic patience.'' 
President Obama has chosen to ignore that advice. Withdrawing 
another 34,000 troops from Afghanistan by the end of the year 
jeopardizes the gains we have made in the south against the 
Taliban and in the east where Afghan and coalition forces are 
fighting the Haqqani Network. The odds that al-Qaeda will 
reestablish itself once the U.S. presence has significantly 
diminished is only increasing. This possibility becomes more 
likely once we take into account Afghanistan's corrupt and weak 
governance, and the insurgents' safe havens allowed to thrive 
in Pakistan.
    Time and again, the administration has insisted that 
Pakistan must cease its tolerance of insurgents' safe havens, 
but Pakistan's leadership has ignored its requests. As a 
result, our relationship with Pakistan has dramatically 
deteriorated, and there are lingering doubts about whether its 
leadership is committed to pursuing peace and stability in 
Afghanistan or in the region for that matter.
    This need of cooperation raises concerns about the 
administration's lack of a coherent assistance and development 
strategy with Pakistan. Pakistan has been one of the leading 
recipients of U.S. foreign aid in the post-9/11 period, yet its 
clear lack of support for our regional security goals fails to 
reflect that investment by the American taxpayer.
    We know any successful withdrawal from Afghanistan, 
however, rests on the ability of the United States to foster 
relatively good relationships with Islamabad. We could even 
settle for lukewarm--but even that is easier said than done. 
This particular challenge is further strained because of the 
administration's failure to put in place an effective regional 
strategy that involves Afghanistan's neighbors, Pakistan and 
India.
    Two thousand thirteen will be a critical year for Pakistan. 
It will hold parliamentarian elections this spring which could 
result in a new prime minister. Add to that the turnover of its 
top military position, and we could see huge implications for 
U.S. security interests. Because of Pakistan's growing nuclear 
arsenal, embedded terrorist networks, turbulent relationship 
with India, and extensive influence in Afghanistan, its 
internal stability needs to be a priority, otherwise it could 
become a huge liability for broader objectives in Asia.
    Pakistan is hedging its bets. It continues to support 
extremist groups so that it can maintain an indispensable 
position in Afghan peace talks and deny India, our strategic 
partner, any significant influence. With the severe trust 
deficiency between our two countries, Afghanistan's decision to 
grant Pakistan a central role in selecting Taliban figures for 
governance positions is very concerning. With so many 
unresolved issues, a premature withdrawal from Afghanistan will 
leave behind a war between competing factions all with vying 
interests.
    Lastly, there has been much discussion recently regarding 
notions that Pakistan is having a strategic change of heart. 
While Islamabad claims U.S. and Pakistani interests can be 
brought into alignment, I believe we must remain skeptical of 
the internal divergent interest that risk undermining U.S. 
objectives. I hope today's witnesses will touch on the 
likelihood that Islamabad's recent gestures are indeed a 
legitimate effort to cooperate with the U.S. and its neighbors.
    I want to again thank Chairwoman Ros-Lehtinen for calling 
this hearing.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Chabot. So 
pleased to recognize now the ranking member, Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Madam Chair and Chairman 
Chabot. I would like to join my colleagues in welcoming the 
distinguished panel of regional and security experts who will 
address the way forward toward Afghanistan and Pakistan.
    I have a particular vantage point as a Veteran of the 
Vietnam War. We all remember President Nixon's plan for 
Vietnamization of that war. I can clearly state that the future 
destiny of any nation is primarily determined, in my opinion, 
by the people of that nation itself.
    After more than 12 years of the war in Afghanistan, a war 
that began on October 7, 2001, in the aftermath of the 
September 11 attacks, the American people are experiencing what 
I consider, Madam Chair, a profound sense of battle fatigue. 
This is a war that has lasted longer than our nation's 8-year 
struggle for independence against the mighty British Empire and 
longer than the 4 years of civil war that cost some 600,000 
soldiers their lives. But unlike those mammoth struggles that 
we fought on American soil involving issues that clearly had a 
direct impact on all Americans, the war in Afghanistan has been 
fought in a distant place and only directly impacts those 
service members who answer the call and the tens of thousands 
of our military families that had to be part of that sacrifice. 
And they continue to do this today.
    There are a number in our own country, particularly here in 
Washington, who call for a continued open-ended commitment in 
Afghanistan. They remind one of the American patriot, Tom 
Payne, who wrote and I quote, ``The summer soldier and the 
sunshine patriot will in this crisis shrink from the service of 
their country. For them the battle is joined, but it is for the 
others to do the fighting.'' In my opinion, Madam Chair, the 
American people never sought an open-ended commitment in 
Afghanistan, nor do they see the goal as nation building. They 
are well aware that Afghanistan has been called the graveyard 
of empires. Not even Alexander the Great was able to conquer 
Afghanistan, nor the mighty British Empire or even the Soviet 
Union. Now what makes us think we can do differently?
    I believe, Madam Chair, the goal of the American people was 
to retaliate by going against Osama bin Laden and his al-Qaeda 
who attacked us on September 11. Osama bin Laden is now dead 
and his son-in-law, the so-called mouthpiece for al-Qaeda, was 
recently captured and brought to the United States. The 
American people believe it is high time to declare victory in 
the war in Afghanistan and to bring our young men and women 
home.
    Madam Chair, the Iraq War cost us $2.2 trillion, cost some 
4,400 American soldiers' lives, and some 137,000 Iraqi men, 
women, and children their lives. What has it produced for us 
today? I cannot say enough of the sacrifices that our 
soldiers--we cannot even take care of our Veterans right now as 
a result of them having to fight in that war in Iraq as we are 
doing in Afghanistan.
    I would like to note, Madam Chair, that after 60 years, we 
still have 29,000 soldiers in South Korea. There is supposed to 
be an armistice. What are we, the policemen of the world? That 
is the opinion of some of our colleagues here in Congress, I 
believe. Madam Chair, thank you so much.
    Mr. Rohrabacher. Will the gentleman yield for a question?
    Ms. Ros-Lehtinen. Thank you. We are so proud of our 
patriots who are wearing our nation's uniform and in that I 
include my daughter-in-law, Lindsey, who has served admirably 
in Iraq and Afghanistan and continues to serve today. And so 
many who are battling it every day. Thank you so much. I wanted 
to point that out.
    The Chair is so pleased to welcome our witnesses. First, 
Seth Jones. Dr. Jones is the associate director of the 
International Security and Defense Policy Center at the RAND 
Corporation as well as an adjunct professor at Johns Hopkins 
University School for Advanced International Studies. Thank 
you, Dr. Jones.
    And next our committee welcomes Kimberly Kagan, founder and 
president of the Institute for the Study of War. Dr. Kagan 
served in Kabul for 15 months and as Chairman of the Joint 
Chiefs of Staff, Mike Mullen recognized Dr. Kagan with the 
Distinguished Public Service Award, the highest honor that a 
Chairman can present to civilians who do not work for the 
Department of Defense. Congratulations to the entire Kagan 
family.
    Third, Peter Bergen, welcome, sir. The director of the 
National Security Studies Program at the New America Foundation 
here in Washington, DC, and a fellow at Fordham University 
Center on National Security. He is also a print and television 
journalist, documentary producer, author of four books, three 
of which were New York Times best sellers and three of which 
were named books of the year by the Washington Post. Do you 
also cook? No, okay.
    And finally, we welcome Daniel Markey. Thank you, Daniel. 
Dr. Markey is senior fellow for India, Pakistan and South Asia 
at the Council on Foreign Relations where he specializes in 
security and governance issues in South Asia. From 2003 to 
2007, Dr. Markey held the South Asia Portfolio on the 
Secretary's Policy Planning Staff at the U.S. Department of 
State.
    I would like to kindly remind our witnesses that your 
testimony in full form has been made a part of the record. If 
you could summarize it to no more than 5 minutes that would be 
great. So without objection, they will be inserted into the 
record and we will start with you, Dr. Jones.

    STATEMENT OF SETH G. JONES, PH.D., ASSOCIATE DIRECTOR, 
    INTERNATIONAL SECURITY AND DEFENSE POLICY CENTER, RAND 
                          CORPORATION

    Mr. Jones. Thank you, Madam Chair. Thank you other members 
of both committees.
    What I would like to do here in summarizing my remarks is 
note that I am pulling them both from my time as a researcher, 
spending time in Afghanistan for RAND, as well as at least one 
major tour as a senior civilian within U.S. Special Operations. 
Had several colleagues that were killed in country, so felt 
personally the loss of the U.S. soldiers in Afghanistan.
    My bottom line, as I will outline it this afternoon is that 
I think it would be detrimental to U.S. national security to 
withdraw all forces from Afghanistan as the U.S. has done in 
Iraq. I think the United States should continue to conduct 
counterterrorism operations in the country and assist Afghans 
in conducting counterinsurgency operations after 2014, although 
perhaps with a presence and strategy that is more akin to U.S. 
efforts in other regions such as the Philippines and Colombia 
based on conditions in Afghanistan and the United States today.
    I am going to make that argument based on three points. The 
first one, my assessment, including coming back from areas like 
Kunar, Nuristan, and Nangarhar along the Afghanistan-Pakistan 
border several months ago, I assessed that both Afghanistan and 
Pakistan and the extremely porous border that they share 
continues to be a hot bed of extremist, radical Islamist 
militancy. There are a range of groups in that region that 
continue to threaten U.S. security and its interests overseas 
including al-Qaeda which as several panelists here have noted 
has been weakened, but I would say, still retains a core 
leadership and still has a presence up in Kunar, where I was, 
with foreigners including British citizens training in camps 
under individuals like Farook al-Qahtani; Lashkar-e-Taiba which 
has conducted attacks in the region and has had operatives 
arrested in the United States for terrorist activity; Tehreek-
e-Taliban Pakistan which was involved in the 2010 Times Square 
plot in New York City; the Haqqani Network and a range of 
others.
    Based on my assessment of this region, I would say it would 
be detrimental to pull out all U.S. forces. We can talk about 
the specifics in the Q&A period. I would just point to the 
situation in Iraq after we left. As I look at the numbers 
there, al-Qaeda in Iraq has been involved in an average of 30 
suicide and car bomb attacks per month this year which is a 50 
percent increase from 2011 levels. Al-Qaeda has also been 
involved in Syria. Its main affiliate, Jabhat al-Nusra, is 
probably al-Qaeda's best armed affiliate group in the world 
now, especially after the raids of several military bases in 
Syria. I think as we have seen in Iraq, U.S. leaving does not 
mean militancy goes away.
    Second, I would argue that as the ranking member noted 
earlier, Afghanistan society is improving in many ways. The 
data is very clear. Just to supplement his data, if you look at 
GDP data, GDP per capita rose from $92 in 2001 per capita to 
$543 in 2011. That is a massive increase. Foreign direct 
investment has massively increased. Infant mortality rates 
declined from 95 per 1,000 live births in 2000 to 73 in 2001. 
Primary school and secondary school enrollment have 
significantly increased. If you look at the secondary school 
numbers from 362,000 in 2001, the last year of the Taliban 
reign, to over 2 million today. So what we see is it is a more 
vibrant economy. It is a healthier economy. And it is a better 
educated economy than when we started.
    Based on a range of other data, I would say including if 
you look at some of the improvements in the Afghan National 
Army, the Asia Foundation data is probably best. Afghans 
believe it has a better force today and it needs less support 
from foreign troops. We have made progress on multiple fronts. 
I think we lose that if we leave. Not to put a fine point on 
it. I would be happy to go into more details in the question 
and answer session.
    Let me just say finally to conclude, I think it is helpful 
to have a discussion about the criteria for an exit. My view is 
the U.S. should exit this region when we have no serious 
national security threats to the U.S. We are not there yet.
    Let me conclude briefly with a quote from the Lawrence of 
Arabia which I think will be helpful as we think about how to 
proceed. And I am going to substitute the word Arabia--
Afghanistan for Arabia. Lawrence said, ``Do not try to do too 
much with your own hands. Better the Afghans do it tolerably 
than that you do it perfectly. It is their war and you are 
there to help them, not to win it for them. Actually, also, 
under the very conditions of Afghanistan your practical work 
will not be as good as perhaps you think it is.''
    So with that, I will end.
    [The prepared statement of Mr. Jones follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Excellent way to end. Thank you, Dr. 
Jones.
    Dr. Kagan.

 STATEMENT OF KIMBERLY KAGAN, PH.D., PRESIDENT, INSTITUTE FOR 
                        THE STUDY OF WAR

    Ms. Kagan. Thank you very much, Madam Chairman, and the 
distinguished members of both committees. It is a great 
pleasure to be here with you today to discuss this vital issue.
    I, too, like Dr. Jones, believe that a successful outcome 
in Afghanistan is essential to America's national security here 
at home, as well as throughout the region of Southwest Asia. 
And I, too, believe and indeed assess that the dismantling of 
al-Qaeda core, although it is something that has been 
undertaken over the last decade is far from complete and far 
from sufficient to achieve our national security objectives in 
Southwest Asia, in Pakistan and Afghanistan.
    Unfortunately, al-Qaeda is both an ideology and an 
agglomeration of organizations that rely on one another to 
perpetuate militancy not only in Afghanistan and Pakistan, but 
also elsewhere on the globe. And unfortunately, that means that 
dismantling al-Qaeda core does not actually suffice to complete 
the reduction of the threat of that radical militancy and 
terrorism against the United States or its allies in the West 
or within the region.
    As Dr. Jones said, there are numerous groups thriving in 
the border lands between Afghanistan and Pakistan, whether it 
be al-Qaeda itself, TTP, LET, the Haqqani Network. And what we 
risk in withdrawing from Afghanistan too soon or in leaving 
smaller number of bases than necessary, is undermining the very 
counterterrorism strategy that we actually as a nation hoped to 
pursue and have continued to pursue through engagement along 
the Afghanistan-Pakistan border in an effort to ensure that 
other militant groups do not get the capabilities or develop 
the intention that they can execute to cause trouble in 
Pakistan, Afghanistan, or the region as a whole.
    This is one of the issues on which I differ from the 
opinion of many senior administration officials because what we 
are talking about here is not simply whether al-Qaeda's 
affiliates have the will to attack the United States or its 
Western allies, we are talking about groups whose intentions, 
wills, and capabilities will change over time as our force 
presence changes, as Pakistani politics changes, and as 
Afghans' politics change.
    Therefore, we actually have a requirement to continue to 
defend America's national security that goes above and beyond 
al-Qaeda senior leadership and actually requires a long-term 
presence, though not an indefinite presence, within the region. 
What does that long-term presence mean? What should it look 
like? Well, it needs to be based on the bilateral security 
agreement that we are working through with difficulty with 
President Karzai to achieve. It requires basing for its 
counterterrorism operations. It requires training the Afghan 
National Security Forces. But most of all, it requires being in 
Afghanistan for two reasons. One is to help preserve the 
essential stability of Afghanistan. Essential because when 
Afghanistan is stable, so too is the region. It is a centrally-
located place and peace and stability inside of Afghanistan 
tend to emanate outward toward its neighbors and have a 
stabilizing effect on them. Whereas, conflict and civil war 
inside of Afghanistan tend to invite proxy participation by 
foreign states and competition that results in violence, terror 
and militancy in a greater number of ungoverned spaces.
    We have to remain in Afghanistan to prevent Afghanistan 
from once again becoming an ungoverned space wrapped in civil 
war. The Afghans right now are looking to us to commit to them 
and they are hedging against two possibilities. One is the 
possibility of radical success. That, in fact, the policies 
that they and we are pursuing now will lead them to a peaceful 
and stable Afghanistan in which their political lives and the 
kinds of changes will continue. The other is a civil war which 
will result not only in their loss of power, but in the 
destabilization of an entire region where this militancy will 
continue to exist. Thank you.
    [The prepared statement of Ms. Kagan follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, Dr. Kagan.
    Mr. Bergen.

  STATEMENT OF MR. PETER BERGEN, DIRECTOR, NATIONAL SECURITY 
          STUDIES PROGRAM, THE NEW AMERICA FOUNDATION

    Mr. Bergen. Madam Chair, members, thank you for this 
invitation. It is really a privilege to be speaking here today. 
I make my comments based on traveling to Afghanistan starting 
in '93 during the civil wars there under the Taliban, so I have 
a sense, personal sense, of what has changed over time. Many of 
these changes, of course, are very good. I have been traveling 
to Pakistan since 1983. Pakistan just celebrated an enormous 
milestone on Saturday which is the first civilian government to 
complete its term in Pakistani history. As you know, there have 
been three successful coups in Pakistan, many other coup 
attempts. So the fact that civilian government has completed 
its term and the Pakistanis will go to the polls to elect 
another civilian government, we are looking at a period when we 
might have a decade of uninterrupted civilian rule which is 
enormously important as we look to the future of the region. 
The Pakistani military has no interest at this point in 
mounting a coup and also probably doesn't have the capability 
to do so. And so we are a kind of different space. This is an 
optimistic moment I think for Pakistan, despite all the 
problems that we know exist in that country.
    Another great opportunity is the election which we referred 
to in Afghanistan is both a moment of opportunity and of great 
peril. If this election is as flawed as the 2009 election, this 
could precipitate a return to a new civil conflict. If, on the 
other hand, this is reasonably fair, reasonably free, and 
reasonably uncontested, this will set Afghanistan down the path 
to basic ally some sort of political agreement that will 
prevent the renewal of some civil war there.
    On the matter of troop numbers, we can have a debate about 
whether 8,000 is the correct number of 15,000. I think much 
more important is the issue of what we say when we actually 
announce the figure. We have negotiated a great U.S. investment 
in this Strategic Partnership Agreement and a partnership 
agreement that goes on until 2024. We should make it clear that 
our commitment is until 2024, whether it is 6,000 soldiers or 
9,000 or 10,000, whatever the final number is, because Afghans 
have received a lot of conflicting signals in the past about 
our intentions. For instance, when the surge was announced of 
30,000 troops it was also announced that July 2011 withdrawal 
date. And that became more important in certain Afghans' minds 
than the fact that President Obama in his first term actually 
tripled the number of troops in Afghanistan from 30,000 to 
90,000. But there was real concern about this withdrawal date. 
So we shouldn't make the same mistake twice.
    On the question of is a civil war likely, I associate 
myself with the comments of Mr. Deutch and also Dr. Jones. I 
mean there has been so much change in Afghanistan, positive 
change, that there is a great deal of investment. There is 
nothing like going through a civil war to prevent the idea--it 
seems like a good idea. And so many people have seen positive 
changes in their lives. I just wanted to add some to the data 
that Dr. Jones and Mr. Deutch mentioned. Five million refugees 
have returned home to Afghanistan. There is nothing like a 
refugee returning home as a signal of faith in the future of 
the country. Relatively few of the millions of Iraqi refugees 
have returned home to Iraq. Iraq is still regarded as too 
unstable.
    There are proportionately, as you probably know, Madam 
Chair, more women in the Afghan Parliament than there are in 
the halls of U.S. Congress. And you can list a whole set of 
data like this. And surprisingly, there has been a lot of 
discussion about the economy Afghanistan once the ACAP goes 
out. But if you look at a World Bank recent study which was 
very rigorous and comprehensive, they espoused that the growth 
rate in Afghanistan will drop from about 9 percent to about 5 
percent. So the economy may do pretty well.
    On the issue of the army, of course, this is a flawed force 
in many senses. The big problem here is the desertion rate. The 
retention rate now in the Afghan army is 27 percent leaving 
every year. So on the other hand, you are seeing a lot more 
Afghan soldiers and policemen dying. Now about 300 Afghan 
soldiers and policemen dying a month. In January, we saw three 
American soldiers die which was the lowest number in 4 years. 
So you are beginning to see a real change in the actual--
willingness of the Afghan army and police who take casualties 
in after all, what is their own war.
    On the issue of the Haqqani Network, I think it is going to 
be--Pakistan is going to continue its basic acquiescence and/or 
sort of lukewarm support for the Haqqanis. That is not going to 
change. When it is in their interest to attack the Taliban as 
they did in South Waziristan and Swat, they will do it and 
conduct serious military operations. Interestingly, we have 
seen absolutely no evidence. It is hard to prove negatives that 
Osama bin Laden was getting any kind of official support from 
the Pakistani Government. That is the assessment of the 
intelligence community. It is also--we have recovered a number 
of documents from the Abbottabad compound and there is nothing 
in there to show that bin Laden was being supported by the 
Pakistani Government.
    One final note, in terms of improving the Pakistani 
relationship, 2011 was sort of a nadir. I think it is getting 
better. Pakistan has never threatened to close down the air 
corridor which is absolutely vital to our supply effort in 
Afghanistan. Kandahar Airport is the busiest airport in the 
world, 700 flights a day. Pakistan has never even threatened to 
close that air corridor. And so I think there are things that 
we can build on. What about a U.S.-Pakistani free trade 
agreement? What about something that has often been mentioned 
in the past which is lowering the very high rate of tariff on 
Pakistani textiles? Thank you.
    [The prepared statement of Mr. Bergen follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much.
    Dr. Markey.

STATEMENT OF DANIEL S. MARKEY, PH.D., SENIOR FELLOW FOR INDIA, 
     PAKISTAN, AND SOUTH ASIA, COUNCIL ON FOREIGN RELATIONS

    Mr. Markey. Thank you, Madam Chair, and all of the members 
of the subcommittees. It is a real honor to be here today.
    Now as you have heard so far from the other panelists, I 
think here in Washington we tend to focus on Pakistan and the 
U.S.-Pakistan relationship primarily within the context of the 
war in Afghanistan. And what I would like to do is try to shift 
the emphasis a little bit to really focus on the U.S.-Pakistan 
relationship, Pakistan in and of itself because I think that 
the consequences of a rupture in that relationship would be 
dire not just for what they say about Afghanistan, but for 
other reasons as well. And why do I say this?
    As has been mentioned already a little bit, but I think I 
can expand, Pakistan is very important both for the 
counterterror reasons that have been mentioned, the regional 
militancy issues, but also because it is a nuclear armed state 
and to put this in context, imagine a Pakistan or a U.S.-
Pakistan relationship that was similar to the U.S.-North Korea 
relationship, keeping in mind that North Korea has about 24, 25 
million people; Pakistan about 200 million, keeping in mind 
that Pakistan has about 100 nuclear weapons and North Korea 
probably has a handful of them.
    Cooperation with Pakistan is significant and important. It 
is also frustrating and inadequate and that we must appreciate. 
But things could get much, much worse in this relationship. We 
should seek to avoid that. Beyond the bilateral issues, there 
is also the regional question. Look at the map. Look where 
Pakistan is. Look at the location next to India, next to China, 
along the Arabian Sea, bordering Central Asia. This is a 
strategically-relevant place that will continue to be so well 
into the future, well after the war in Afghanistan ends one way 
or another.
    Now fortunately, although 2011 and 2012 were very rocky in 
the U.S.-Pakistan relationship, we have seen a shift in tone. 
Pakistan reopened the ground lines of communication, restarted 
dialogues with the U.S. Presented itself as being more eager to 
be involved in the reconciliation process with the Afghan 
Taliban. Now this is driven primarily, I believe, by Pakistan's 
anxiety about the future, anxiety about the war in Afghanistan. 
Now that anxiety is not especially new, but the tone has 
shifted and that we should appreciate.
    And it has shifted primarily because of our actions. If 
there has been a change in Pakistan's strategic calculations, 
which I don't think the change is all that significant, it has 
been driven by a more significant shift on our part. And this 
has already been alluded to. That shift is on our part, has to 
do with the decisions that we have made, the U.S. Government 
has made to withdraw forces from Afghanistan faster and at 
greater numbers than I think the region would have anticipated 
just a matter of a year or two ago.
    And I think this has also been coupled with a far more 
energetic effort on our part, on the U.S. Government's part, to 
reach out to Afghan insurgents through this process of 
reconciliation.
    So if there is a change, it has been the change of the 
United States. And what will this mean? What will these changes 
mean for post-2014? I would sketch out two scenarios and we 
have heard a bit of this so far. But if everything works as we 
hope, that is, if we can build the Afghan National Security 
Forces and transition to them over time or on time and bear 
some of the burden for that with our allies; if we can see 
Afghanistan through the next political transition, that is, 
their Presidential elections; if we can bring the bulk of the 
insurgents on board through some sort of a reconciliation 
dialogue; and if we can maintain a cooperative relationship 
with whatever new Afghanistan emerges to keep up a fight 
against remaining terrorist cells, that would be great. Then I 
think the United States' core interests will be met. Pakistan's 
interests will be met. The region's interests will be met. 
Afghans will be pleased. But if we can't do this, if we can't 
succeed in this process and it breaks down along one or more 
fronts, then what is likely to happen is the situation in 
Afghanistan will deteriorate.
    And I am more concerned that perhaps--than at least some of 
my colleagues here, who I am more concerned that we could see a 
spiraling of the insurgency and a downward deterioration into 
worst civil conflict. At that point, the consequence for 
Afghanistan will be dire, but I would also point to the 
consequence for the U.S.-Pakistan relationship. There will be 
mutual recriminations. We will blame each other. We already do 
so. The consequences then could be for greater rupture between 
the United States and Pakistan. So the end game of the war in 
Afghanistan could set us up for a break in the U.S.-Pakistan 
relationship.
    What should we do from this? First, don't confuse what we 
are seeing with Pakistan as more of a strategic shift. See it 
as a tactical response to our behavior. Secondly, look for 
narrow points of cooperation where we can with the Pakistanis. 
We will not agree on many important things. We will agree on 
some. And finally, we should use the time that remains in our 
drawdown in Afghanistan where we still are focused with arms, 
personnel, resources, senior level attention, to strike hard at 
our adversaries and enemies along the border with Afghanistan 
and Pakistan, both because they will be a threat to us if they 
persist as others have made out, but also because they will be 
a threat to Pakistan, the U.S.-Pakistan relationship and the 
region moving ahead. So we have a limited amount of time to 
really make a military difference on that score as well. Thank 
you.
    [The prepared statement of Mr. Markey follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much. Excellent testimony 
and I will speed through the questions so we can get as many 
members as possible. Our exit strategy, the bilateral security 
agreement, and certainly our exit from Iraq was not optimal, as 
President Obama would say about other things. Is the same 
mistake going to be repeated in Afghanistan, along with legal 
immunity for our U.S. forces in Afghanistan?
    Another controversial point between Karzai and the United 
States has been the issue of prison transfers from U.S.-run 
detention center near Bagram to Afghan custody. There have been 
several delays with the last one coming while Secretary Hagel 
was just in Afghanistan. Why is Karzai so adamant that these 
transfers happen immediately? Why has this been such a 
difficult issue to resolve? With all of the corruption problems 
surrounding the Afghan Government, can the U.S. trust that 
government to properly secure those prisoners in a manner 
consistent with our standards? And why is Karzai willing to 
undo all of the good will that had occurred between the U.S. 
and his government over this issue? What is the symbolism or 
the significance of Bagram for Karzai?
    We will just start down the line. Thank you, Dr. Jones.
    Mr. Jones. Madam Chair, this is a very important issue. In 
working with several Afghan ministers along these lines, I 
would note that the Afghan Government more broadly has been 
more amenable to working through these issues than some of the 
public statements from the President would indicate. On issues 
like prison transfers, I would add other things like night 
raids and the use of Special Operations in villages. Public 
statements have ended up being slightly different from the 
negotiating strategy of the government in private.
    I think, in part, what we have got to be able to see 
through is that some of these statements, in my view, by the 
Afghan President are done, in part, for domestic political 
purposes, to try to demonstrate to his constituency, his 
population, that he is not a puppet of the United States. So I 
think we have to take some of his comments into domestic 
politics, into a domestic politics context. So what does that 
mean? I think most of these issues, including the Bagram prison 
transfers, we will be able to negotiate. I think we do have to 
be careful that we do not hand over prisoners, as we have seen 
with individuals like Mullah Zakir, who is the second or third 
in command--the leading military commander of the Taliban that 
they released. So I think we can hold fast on several issues. 
But I found them in practice more amenable.
    Ms. Ros-Lehtinen. Thank you so much. Dr. Kagan.
    Ms. Kagan. Thank you. To expand on Dr. Jones' point, 
President Karzai is facing an Afghan electorate even if he 
himself is not running for President in 2014. Certainly, he 
wants to ensure a smooth succession between him and someone who 
also represents the same ideas of Afghan Pashtun unity that he 
would like to represent and symbolize.
    To do so, he is going to play to some of his Afghan 
audiences by reinforcing his commitment to his own sovereignty, 
something frankly that he has emphasized quite a lot in public 
rhetoric and also in private rhetoric over a number of years 
when it comes to legal immunities of detainee transfers, 
Special Operations forces privileges, and so on and so forth.
    I think what is essential here is first to recognize that 
we, the United States, are never going to have a total 
conversion of interests with President Karzai. He is the 
President of a sovereign nation and he has different interests 
from ours. But just because he speaks actively in public to 
posture to his electorate does not mean that that forms the 
basis of his policy or the basis of his expectations of the 
United States going forward.
    It is also vital that the United States does not actually 
lose authorities over the next year to conduct the kinds of 
operations that we will need to conduct in order to maintain a 
counterterrorism mission. And insofar as President Karzai is 
bargaining to take away some of these authorities, it is okay 
for us to push back and to push back hard in order to make sure 
that we secure our national interests.
    Ms. Ros-Lehtinen. Thank you. And in the interest of time, I 
am going to cut you gentlemen off and give time to Mr. Deutch. 
We are in recess, but we expect that we will have votes in just 
a little while.
    Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman. As we look forward 
to 2014, a key factor to stabilizing Afghanistan for the future 
and really to ensure our own national security interest is to 
improve Afghan governance. And as several of our witnesses have 
said today, corruption has been rampant in Afghanistan for many 
years. In order to have long-term legitimacy, the central 
government has to root out corruption at the highest levels and 
it seems that a good opportunity to show that will be in the 
Presidential elections in 2014.
    Mr. Bergen, you had said in your testimony that the 
elections represent both a great opportunity and a potential 
peril for the country. I agree with you. What are the chances 
of a peaceful transition of power? Is Afghanistan capable of 
running free and fair elections? And what should the United 
States do, what can we do to help the Afghans prepare for the 
2014 elections? And are there lessons to learn from the 2009 
elections to help ensure that 2014 is not a repeat of those? I 
will start with you, Mr. Bergen.
    Mr. Bergen. Thank you, sir. In 2005, Afghanistan had a 
Presidential election in which the turnout was 70 percent and 
there hasn't been a Presidential election in this country since 
1900 where there was 70 percent turnout. So there is nothing 
inherently Afghan about not being able to conduct their 
reasonably good election. Two thousand nine was flawed. We 
played a little bit of a role, the United States, in the sense 
that we privately told a number of different Afghan leaders 
that we are backing you which had the unintended effect of 
splitting the opposition to Karzai. We shouldn't make that same 
mistake again.
    The election is something that we can provide security 
assistance to and technical assistance to. At the end of the 
day, it is a U.N. mission more than a United States kind of 
government mission. And we should be cognizant of all of the 
issues we have just discussed, that something that is 
reasonably free and fair enough in which we don't sort of back, 
seem to be backing anybody in particular, that will be very, 
very useful for Afghanistan's future.
    Mr. Deutch. Dr. Kagan, do you have thoughts on what would 
constitute free and fair enough?
    Ms. Kagan. Afghans tend to settle their political 
differences through compromise and negotiation. And since they 
have a Presidential, rather than a parliamentary system, what 
we should expect to see is a negotiation among the political 
leads of Afghanistan in advance of the election to make 
different power sharing agreements that will fall into place 
depending on the outcome of the election.
    What is free enough and fair enough I think is a very 
important question. But what is more important is what is 
actually going to convey a degree of legitimacy on the 
government and a capability to govern the country which is 
absolutely necessary to prevent the kinds of security vacuums 
that will give rise to al-Qaeda.
    Mr. Deutch. But isn't legitimacy going to be based 
ultimately on whether the election is perceived to be free and 
fair, Dr. Jones?
    Mr. Jones. Yes, they are. Frankly, I think that the 
challenge with this election as opposed to previous ones is 
assuming President Karzai does not run, you are going to have a 
range of individuals with questionable national legitimacy that 
may have greater incentives to stuff ballot boxes, pay 
individuals to vote, intimidate. So this is partly an 
information issue. I mean one thing the U.S. has to do with 
several of its allies is to continue to collect information on 
anything about voter fraud, payment of information, 
intimidation, and to get involved both privately and publicly 
in calling this out. I think if that is made very clear very 
early on, that may deter some of the voter fraud that may be 
likely in next year's elections.
    Mr. Deutch. Dr. Markey, can we deter that voter fraud? Can 
we prevent it from happening?
    Mr. Markey. I am pretty skeptical about the prospects for 
the upcoming election. I mean, look, the last one was deeply 
flawed and we were heavily present. The next one we will be 
much lighter footprint, fewer people around the country. Our 
capacity to police it, our capacity to have leverage over the 
process, I think, are just going to be much, much more limited. 
I think we will see the kinds of abuses that you are talking 
about. I would broaden the conversation a bit though. I would 
say first of all, the elections will be important and they will 
to some--possibly, if they happen at all given the kind of 
instability that may emerge, they may ratify the kind of 
process that Kim is talking about, a kind of internal dialogue. 
But that dialogue is probably also going to have to include 
questions about the constitutional system and the 
constitutional order there, if in fact, it is going to bring on 
board some part of the insurgent movement. I mean if that is 
the plan, if part of the plan is reconciliation, you are going 
to have to bring in people who are now outside the political 
process.
    So the elections may be kind of a capstone to that. Will 
still be ugly and messy, but will have to be more of a 
ratification of a broader dialogue than a simple, neat process.
    Mr. Chabot [presiding]. The gentleman's time has expired. 
The gentleman from California, Mr. Rohrabacher, who is chairman 
of the Eurasia and Emerging Threats is recognized for 5 
minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And to 
my friend, Mr. Faleomavaega, I would like to suggest that his 
analysis of the war weariness of the American people is right 
on target. And what I wanted to remind him of earlier and just 
remind us is that Mr. Faleomavaega is a combat Veteran and also 
the Samoan people have contributed a great deal to our military 
over these last 10 years of conflict. I just wanted to put that 
in the record.
    I find it a little bit disturbing that we are talking 
about--from what I just said, that we need to make sure America 
remains there and has military forces there after 2014. There 
is a contradiction there. And the fact is, the American people 
don't want to stay in that part of the world. Let me just note 
that the optimism of this panel, especially the last two 
members here about Pakistan, let us just note, things have 
changed in the last 20 and 30 years. I mean you can see it, 
even before the testimony today, people were describing 
Pakistan in a different way than what we would have 20, 30 
years ago.
    Pakistan is no longer our ally and India is no longer the 
ally of the Soviet Union. What we have now is an ally in India 
and an enemy in Pakistan, not because we are declaring they are 
our enemy, but because Pakistan has declared itself an enemy of 
the United States. Nobody but an enemy would take the murderer, 
the terrorist who slaughtered 3,000 Americans and given him 
safe haven and then arrest the man who helped us bring justice 
to that murderer and arrest him and call him a traitor.
    Pakistan has declared themselves--it is about time we 
realize that Pakistan is the source of many of the problems 
that we have there, rather than being optimistic that Pakistan 
is going to change.
    Let me get on to this about Afghanistan. We have imposed 
Karzai onto the Pakistanis. Karzai had no popular base of 
support and instead of letting the king, King Zahir Shah, play 
his rightful role in bringing about a new type of government, a 
new government in Afghanistan, we superimposed Karzai on them 
and in fact, our Ambassador Zal wrote their constitution which 
is totally contrary to their own national patterns of life. It 
is the most centralized constitution government in the world 
today. The President appoints the Governors. What would happen 
to the President appointing the Governors in our country? There 
would be a lot of conflict there over who was going to hold 
power, because once you establish absolute power people fight 
over it.
    Let me just suggest I think that we have done in 
Afghanistan since driving out the Taliban and let us note it 
wasn't the United States that drove the Taliban out. It was the 
Northern Alliance with the support of the United States. Then 
we created an unsustainable government, an unsustainable 
governmental sector of that society. It is unsustainable 
because it is contrary to their decentralism and we put people 
in power that didn't have any popular base of support or ethnic 
base of support.
    Well, if it is unsustainable, how can anyone suggest that 
we remain in Afghanistan and just have more of our people 
killed like this poor captain down in Florida who the chairman 
is lamenting and who represents all of the people killed in all 
of our--throughout all of our districts as well? So why should 
we stay knowing that the government is an unsustainable 
government that we created in the first place. You have 21 
seconds to answer that.
    Mr. Chabot. Is it directed at anyone in particular?
    Mr. Rohrabacher. Whoever. I made comments. Go ahead. Mr. 
Markey, do you want to take me on about Pakistan?
    Mr. Markey. Sure, just on that. I think you are right in a 
sense. Pakistan has been incredibly frustrating and at times 
would be better characterized as an adversary or enemy, 
particularly with respect to our differences in Afghanistan. 
But let us be careful what we wish for because they could be an 
even worse enemy than they currently are.
    Mr. Rohrabacher. They are friends with China.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from Samoa, who actually is the ranking member of the Asia and 
the Pacific Subcommittee, Mr. Faleomavaega, you are recognized 
for 5 minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I generally 
don't like to oversimplify a given issue, but as a matter of 
historical perspective, I want to share my view with our 
panelists. We were in Korea for 3 years, and 30,000 of our 
soldiers lost their lives. We were in Vietnam for 10 years, and 
60,000 of our soldiers lost their lives with some 200,000 of 
our men and women wounded and maimed for life. And some 2 
million Vietnamese women and children killed in that terrible 
war. Then we were in Iraq for some 8 years; and 4,400 soldiers 
lost their lives. There seems to be a consistency of the 
pattern and look at how long we tend to stay once we start a 
war. It seems like it is always easy to start a war, but to end 
itqu seems to be really, really difficult as my good friend 
from California is expressing the very same concern that I 
have.
    I understand Dr. Jones and Dr. Kagan both are of the view 
that we should continue to stay in Afghanistan. I think we need 
to go back to the very beginning, why we ended up in 
Afghanistan. It was due to the attack on the American people on 
September 11th. Guess what? Nineteen terrorists attacked our 
country. Fifteen were savvy Arabs, one Egyptian, one Jordanian. 
Not one Iraqi among the 19 terrorists who attacked us. I think 
the whole world, even our country, was in favor of pursuing 
Osama bin Laden. He was the instigator. He is the one that 
organized al-Qaeda. We need to go after them. Where? Because he 
was in Afghanistan. But what happened? We shifted gears and 
said, ``No, not just Osama bin Laden. We need to go after 
Saddam Hussein.'' And for other reasons we missed the whole 
purpose of why we were in Afghanistan, which was to go after 
al-Qaeda and Osama bin Laden.
    And then of course, we added the idea that we need to do a 
little regime change. Added to the problem with the Taliban at 
one time controlled Afghanistan and an entirely different set 
of situation where the Taliban, they didn't attack us. The 
Taliban has no intention of attacking our country. In fact, 
they want us out of Afghanistan. Let them do their little 
thing.
    The fact of the matter is that 12 million Pashtuns live in 
Afghanistan and this is where the Taliban has its base, with 
some 27,000 Taliban, as I understand it. But on the borderline 
with Pakistan, there are 27 million additional Pashtuns that 
live there. So is it any surprise that Osama bin Laden was able 
to stay in Pakistan for nearly 5 years until we were finally 
able to locate his whereabouts?
    My concern is that it is very easy for us here to say, 
``Oh, we need to leave our soldiers there.'' I believe that 
this should be the very last act the Congress, the 
administration, or our Government makes when we put our men and 
women on the line in harm's way, it better be for the final 
security of our national interest. Some have said the war in 
Iraq was a war of choice, the same way that the war in 
Afghanistan is a war of choice. Where do we really come into 
sensing this balance where we have to be there and the fact 
that we send our soldiers in harm's way to do this to protect 
our national interest?
    I know your position and I respect that, but I just cannot 
believe that we are going to be there another 10 years or the 
suggestion that it is vitally critical to our national interest 
that we stay in Afghanistan. Could you elaborate a little more 
on that, Dr. Jones?
    Mr. Jones. Yes, sure. And I sympathize with the range of 
your comments on other theaters including Iraq to some degree. 
But let me just say this, two things. One is that the American 
presence in the strategy can vary quite a bit. The U.S. has 
played a very useful role in undermining and countering 
terrorist and insurgent groups with a limited presence in the 
Philippines and Colombia and a range of other places that does 
not require large amounts of money, large numbers of boots on 
the ground, and large numbers of Americans dying. So I do think 
there is some variation in how we proceed that may look like 
other cases.
    The last thing I will note is my concern right now in 
Afghanistan is that we look up in Kunar province where we have 
current al-Qaeda training camps, small, they are there because 
they have a local Taliban ally in that case. It is a district-
level commander. That is the situation I want to make sure if 
we leave too quickly that that stuff doesn't spread.
    Mr. Faleomavaega. I am sorry, my time is up. Thank you, Mr. 
Chairman.
    Mr. Chabot. Thank you. The gentleman's time is expired.
    Mr. Bergen, let me ask you a question. You mentioned in 
your statement that you felt it was a mistake that the 
administration had announced the surge in Afghanistan and 
basically, at the same time, announced that we are pulling out 
by this date. What do you think were the consequences of 
announcing that when they did? What could have or should have 
happened differently? What do you think were actually the 
results of that?
    Mr. Bergen. Yes, I mean this is all in the context of 
trickling the number of troops in Afghanistan from 30,000 to 
90,000 which happened under President Obama. But unfortunately, 
people and the media of which I am part of, sort of seized on 
the part of the speech where it said the drawdown was going to 
start in July 2011. I think the problem with that is that 
Afghans do actually want us to stay, generally speaking. They 
are not happy about some of the things that have happened, but 
they see us as a guarantor that the Taliban won't come back and 
a guarantor that neighboring countries, whether it is Iran or 
Pakistan, don't take too much of a role in the future of their 
country.
    And so I think in retrospect July 2011 was a mistake. So 
let us learn from our mistakes when we announce the new level 
of troop numbers and we have already negotiated the Strategic 
Partnership Agreement. Let us point out that the Strategic 
Partnership Agreement is still 2024 and these are not combat 
troops. These are advisory troops, some people doing 
counterterrorism. So the concern about large numbers of 
American soldiers dying in post-2014 we have already seen the 
numbers are in single digits right now every month as opposed 
to much larger numbers we were seeing before. So I think just 
learn from this error, if possible.
    Mr. Chabot. Thank you. Let me shift gears. Recently, the 
Iran-Pakistan pipeline, also called the peace pipeline, gained 
some momentum. The pipeline was inaugurated this month in the 
southern Iranian port city of Chah Bahar by President 
Ahmadinejad and President Zadari. Iran offered Pakistan a loan 
of $250 million to $\1/2\ billion to work on the 781-kilometer 
portion of the pipeline inside Pakistani territory. Russia and 
China have also indicated their willingness to help Pakistan to 
construct the pipeline. In January, U.S. Consul General Michael 
Dodman said the State Department would impose sanctions against 
Pakistan if it finalized the deal with Iran.
    Taking into consideration that once a country is dependent 
on a particular source for their natural gas supply, it is 
extremely difficult to change course, how do we assist Pakistan 
to diversify its energy sources in order to reduce its desire 
to partner with Iran? And would you recommend that the U.S. 
impose sanctions on the foreign companies that are involved in 
this pipeline project and should U.S. assistance to Pakistan be 
conditioned on its continued support for the pipeline?
    Dr. Kagan, do you want to take that or Mr. Markey?
    Mr. Markey. Thanks. First of all, I would say, to me, the 
pipeline is deeply problematic and there are all kinds of 
reasons to oppose it. It also appears to be a political stunt 
and I believe it s a stunt by the Pakistani outgoing government 
to attempt to portray itself as more anti-American and more 
independent than many Pakistanis have believed up until this 
point. And it is also a stunt to try to show that they are 
doing something to meet Pakistan's energy needs that is 
tangible when they haven't met those energy needs over the past 
several years.
    And so in that category, and recognizing that this is a 
pipeline that is proposed to go across some of Pakistan's most 
difficult territory through Baluchestan Province which is going 
to be very difficult to build and I believe almost impossible 
to build and certainly impossible to build on the timeline that 
they have in mind, I would suggest that while we should do 
everything to oppose the pipeline, including threatening 
sanctions should they turn it on, and including suggesting an 
alternative, a pipeline from Turkmenistan, TAPI pipeline that 
would probably meet their energy needs as well or better and 
would pose none of the problems that this Iran pipeline does 
pose, that that should be the package that we go ahead with. 
That doesn't mean imposing sanctions now, but it does mean 
leveling threats and making it clear that those sanctions would 
be imposed should they open such a pipeline down the line. But 
as I say, it is years away if it ever happens.
    Mr. Chabot. Thank you very much. My time is about ready to 
expire so I will now turn to Mr. Wilson, the gentleman from 
South Carolina. Five minutes.
    Mr. Wilson. Thank you, Mr. Chairman. Thank you all for 
being here. I am particularly concerned about insider attacks. 
Over the weekend, I had a very sad opportunity to participate 
in a visitation for a very dedicated young American who has 
done so much for our country. She is retired Sergeant 1st Class 
Inez Renee Odom-Baker of Cayce, South Carolina. She was 
murdered during an insider attack this month as she was serving 
with dedication to help the people of Afghanistan as a civilian 
contractor. My sympathy to her two sons, Andrew Odom and Larry 
Mitchell, Jr. and family.
    Dr. Kagan, for you and your colleagues, what assurances can 
you provide to the families of personnel serving in Afghanistan 
that improved security is in place to reduce the number of 
insider attacks?
    Ms. Kagan. I cannot possibly myself give guarantees to the 
families of those who are in Afghanistan. And the issue on 
green on blue attacks is something that is meant to be of 
concern to all of us because it is a strategic opportunity that 
the Taliban is taking that disaffected individuals within the 
Afghan army who are not affiliated with the Taliban. The Afghan 
Government is unfortunately not able to deal with it entirely 
because, frankly, our proximity to, partnership with, and 
continued interaction with the Afghan National Security Forces 
is so essential to the long-term outcome and stability in 
Afghanistan. Despite these attacks and despite the threat that 
they pose to the men and women who serve in military and 
civilian capacities we actually need to persist with that close 
partnership in order to achieve our strategic objectives over 
the long term, namely a degree of stability in Afghanistan and 
an ability for that army to have the capability to defend its 
own country's borders so that ultimately we can reduce our 
forces and come home.
    Mr. Wilson. Thank you. If any other would like to comment? 
Yes, Dr. Jones.
    Mr. Jones. Yes, just a couple of things. One is the levels 
of insider attacks were at a historical peak last year. Both 
ISAF and the various components made a concrete effort to 
improve and I was out there looking at some of this, the 
vetting process for the Afghan local police and the Afghan 
national police and the Afghan national army which seems to 
have reduced by the end of the year in some cases, the number 
of green on blue attacks, including the collection of 
information, monitoring of cell phones conversations and some 
cases with active Taliban or Taliban sympathizers to make sure 
if there are any problems with current Afghan national or local 
security officials that those are dealt with.
    I think there has been a greater recognition, some vetting 
has been improved. But I would say the other thing I would just 
comment on is this is one area where I do think we have to push 
back on the President of Afghanistan. Comments like the United 
States is collaborating or has common interests with the 
Taliban has the potential to cause an increase in insider 
attacks if that is the message that the President of that 
country is sending out to his forces. So I think a very strong 
pushback to him that those statements actually are 
counterproductive because they threaten the security of U.S. 
forces operating in there would be helpful.
    Mr. Wilson. If Mr. Bergen or Dr. Markey, do you have--and 
indeed, I appreciate the efforts of vetting and I was happy to 
hear even to the point of monitoring cell phone conversations, 
it is particularly important to me. I am very grateful. Thanks 
to my wife, Roxanne, we have four sons serving in the military 
today. They are Veterans of Iraq serving with Bright Star in 
Egypt and Afghanistan. And so our family truly is appreciative 
of any effort to make sure that insider attacks are eliminated, 
reduced, and so again, I want to thank all of you for being 
here today and I yield back the balance of my time.
    Mr. Chabot. The gentleman yields back and we would like to 
thank you for also serving this country, as well. I want to 
apologize to my Democratic colleagues. I went over here twice 
in a row. The gentleman from California is also the ranking 
member of the Terrorism, Nonproliferation, and Trade 
Subcommittee. Mr. Sherman is recognized for 5 minutes.
    Mr. Sherman. I doubt very much whether we are going to see 
a peaceful, unified, progressive state in Afghanistan, but I 
have no doubt that there will be those advocating for unlimited 
American resources, treasure, and blood to try to achieve that 
objective.
    Dr. Jones, I want to thank you for your pointing out that 
we can have antiterrorist presence in Afghanistan involving 
tiny fraction of the cost and casualties than we have 
experienced over the last several years, especially since the 
surge.
    And I believe it was Dr. Markey who suggested a U.S.-
Pakistani free trade agreement. Again, there is no--you did 
not? Excuse me. Mr. Bergen. I would point out that the cost of 
that to American workers has to be calculated among the other 
costs that those focused on this area would have the taxpayers 
and people of America pay.
    Now the Taliban would not be in business in Afghanistan if 
it was hunted down by the Pakistani national security 
enterprise as if it was a true enemy of Pakistan. So the 
question I have and I will ask you to accept the premise 
whoever volunteers to answer this, that indeed we installed 
Karzai. There are few who doubt that. Why did we choose to 
install someone who was so distrusted by Pakistan or at least 
elements of the ISI that they have chosen to keep the Afghan 
Taliban as a potentially useful asset for future involvements 
in Afghanistan? Why did we not install somebody in Kabul that 
the Pakistanis could unite behind and view those who waged war 
against Kabul as enemies of Pakistan? Do I have someone?
    Yes, Dr. Jones.
    Mr. Jones. My understanding is the record is fairly 
straightforward on this and that is the U.S. envoy to the Bonn 
negotiations, Ambassador Jim Dobbins at the time actually ran. 
He said this in his book that came out several years ago that 
he ran President Karzai's name by the ISI directly and--or 
actually gave them the opportunity to provide their top choice 
as he did with the Indians, the Chinese, and others and 
President Karzai was their--was the ISI's choice as their most 
palatable option in Afghanistan. That view clearly changed over 
the next several years, but I think for the record, that point 
anyway appears to be fairly straightforward.
    Mr. Sherman. Thank you. Dr. Markey, do you have a view on 
that?
    Mr. Markey. I think it is important to just take us back to 
that early period and to appreciate the extent to which we, the 
United States, believed that the Taliban were truly a spent 
force. And I think that most of the countries in the region 
also believed that they had been thoroughly beaten and that 
this was a very winnable prospect and that Karzai, if it is 
true that the ISI were willing to accept him as sort of a best 
of bad alternatives candidate, they were willing to do so 
because they believed at the time that the war had been won by 
us, that it was over.
    Mr. Sherman. Another view is they just view whoever we 
installed in Kabul is somebody who would only be there for a 
year or two and they would sweep him aside and put in whoever 
else they wanted which is the other story I have heard.
    Mr. Markey. Possibly, but there was a pretty dramatic and 
convincing route of the Taliban at that time. And their ability 
to reconstitute themselves took a matter of years.
    Mr. Sherman. Whether it was the Taliban or someone else, 
the idea that the government we installed would survive against 
whatever group the ISI put together. Anyway, I want to shift to 
a completely different subject and that is Pakistan which I 
believe is far more important to us long term than government.
    We are not doing too well in attracting friends among the 
Pakistani public, even with our public diplomacy. Pakistan 
speaks a variety of different languages. What should we do to 
reach out to the different communities that make up Pakistan? 
Should we be doing more, for instance, the Sindhi language with 
our broadcasting through Voice of America and through public 
diplomacy? Or should we adhere to the view of some in Islamabad 
that we should treat Pakistan as a purely Urdu-speaking 
country?
    Who wants to answer this one? Dr. Bergen.
    Mr. Bergen. To some extent it is not what we say, it is 
what we do. Right? The thing that really angers the Pakistanis 
the most right now is our drone program. And the Afghan 
Parliament is basically an April----
    Mr. Sherman. I am asking about broadcasting in the Sindhi 
language and you are talking about our drone program?
    Mr. Bergen. Well, I am going to say it doesn't matter what 
we say in Sindhi, Urdu, or Punjabi or Pashtu or any language if 
we have things that anger them at a very basic level.
    Mr. Sherman. Okay. Do I have another response? I agree that 
the drone program has angered many in Pakistan and as the 
apprehension and death of bin Laden on their territory, but 
sometimes you have to do what you have to do. It doesn't mean 
we shouldn't do the best job of public diplomacy that we can 
do. And I yield back.
    Mr. Chabot. Thank you. The gentleman yields back. The bells 
that you heard here mean we have votes on the floor. Several 
members have already headed over, so we are going to head over 
now, so we are in recess. We will be back in probably a half 
hour, maybe less. Thank you very much. We are in recess.
    [Off the record.]
    Ms. Ros-Lehtinen [presiding]. The subcommittee is now back 
in session and I am going to recognize Mr. Kinzinger to take a 
slow 5 minutes.
    Mr. Kinzinger. I will take a slow 5 minutes. Thank you, 
Madam Chair, and thank you all for waiting through the votes 
and being here. It has actually been a pleasure to listen to 
you.
    Ms. Kagan, it is great to see you. Thank you for all your 
hard work and I point you out just because I know of your work 
well and I appreciate things that you have done. Actually, I 
have to admit I was very bothered earlier when I heard America 
basically in essence, in a round about way, referred to as an 
empire when somebody had mentioned that Afghanistan is the 
deathbed of empires like for some reason America has somehow 
been chasing the vast natural resources in Afghanistan or the 
huge copious amounts of oil. I will tell you that Afghanistan 
in my mind, although U.S. interests are at stake, was a war 
that was fought out of frankly, I think, moral justification; 
an entire culture that believes that women couldn't even be in 
the same room as men. You hear about people that would have 
their nose and ears cut off because somebody in the family 
committed a crime and they would be used as payment. Frankly, I 
think what America has done and what the Western world has done 
in Afghanistan has been frankly pretty amazing.
    I also want to briefly explore the issue of the surge and 
the surge in Iraq. When President Bush added troops to Iraq it 
wasn't the addition of the troops that really made the 
difference. It was that in that time the enemy believed that 
America could not stand the heat of the improvised explosive 
attacks of the attacks that were going on, the massive 
casualties, and thought that President Bush would eventually 
say we are done. We can't take it any more.
    And not only did the President not say that we are not 
done, he said we are going to send more troops in and we are 
going to win this war. And what you saw when that happened was 
on a dime the war in Iraq turned. And the war in Iraq went from 
a bloody 100 American troops lost a month to a massive shift 
and a victory, frankly, for the United States that I feel and I 
am afraid that we squandered away a year ago.
    In Afghanistan, and this is my first question, we talked 
about the 2014 timeline. I think it was Mr. Bergen that had 
mentioned the second you say we are surging troops, but they 
are leaving, so basically the last troop going in is actually 
going to cross paths with the first troop leaving from the 
initial entrance, you send a message to the enemy and the 
Taliban have saying. They say America has the watches, but we 
have the time. So you send a message to the Taliban and you say 
hey look, we are sending more troops, but just wait your turn. 
I know you have been fighting this war for decades, just fight 
it a few more years because we are out. It sends the wrong 
message.
    So the question I have for the four of you and please 
answer very briefly, what is up with the year 2014? Is there a 
reason that 2014 was actually picked? Is there a reason on the 
ground? Or was 2014 used because of a political concern back 
here at home? It is palatable to the American people. Because I 
think, as I heard my colleagues on the other side mention, when 
you use American troops you have to do so very judiciously. I 
agree. When you use American troops though, you should never 
make a decision that involves American troops based on politics 
at home or it is time to leave.
    So let me just ask. I will start with you, Dr. Jones. What 
is special about the year 2014 or is it politics?
    Mr. Jones. I think the answer, it is a political decision. 
Period.
    Mr. Kinzinger. Dr. Kagan.
    Ms. Kagan. I concur. Two thousand fourteen does not make 
sense from the perspective of what we are trying to accomplish 
in Afghanistan. The choice of 2014 was a political decision.
    Mr. Kinzinger. Mr. Bergen?
    Mr. Bergen. I think it is a little more complicated than 
that. This was a decision that was arrived at with the Afghan 
Government and also with our NATO allies which number, I think, 
21 in Afghanistan right now. And we have negotiated a Strategic 
Partnership Agreement until 2024. So it is not like we are 
turning the lights off in 2014.
    Mr. Kinzinger. Dr. Markey?
    Mr. Markey. No doubt that it has a political component, but 
the original 2014 suggestion, I believe, actually came from 
President Karzai and then was latched on to by the 
administration. Just one quick point, it did send a wrong 
message to the Taliban. It sent the wrong message to the entire 
region, so it was beyond just the adversaries. It was our 
allies, as well as the regional players.
    Mr. Kinzinger. I agree with you and I appreciate you 
bringing that up because in the Middle East it seems that we 
like this idea of if you smile really well, and the West if two 
people get in a fight one person says I am sorry and you have 
an agreement then. In the Middle East, it is frankly strength. 
And the second you say we are eager to get out of here, you 
have just shown the enemy they can outlast us.
    My last point, and it is not a question. It is a point. 
Vietnam, we can look back at the Vietnam lessons and say we 
should or shouldn't have been there. I will argue that a 
different day. But at the end of Vietnam, we left people that 
have stood up and fought for a southern government that fought 
for freedom. We ended up leaving them high and tight, high and 
dry, and a lot of people died as a result.
    Now the next major war we get involved in, Iraq and 
Afghanistan. The implications of the United States leaving--and 
the Western allies--I don't mean of everybody--leaving 
Afghanistan at a time when frankly a lot of people have stood 
up and said I will put my life on the line to defend a new 
Afghan Government and to defend freedom and to defend the 
women's ability to go to school and to be human, frankly. If we 
leave, I think that sends a message to the rest of the world 
that if we ever have to do something like this again and it is 
ignorant of us to think we never will, it would be very hard to 
get locals on our side when we ask them to support the United 
States or the Western world again.
    With that, Madam Chairman, thank you. I yield back.
    Ms. Ros-Lehtinen. Thank you very much. And so pleased to 
yield to another combat veteran, Congresswoman Gabbard. Thank 
you.
    Ms. Gabbard. Thank you very much, Madam Chairwoman. I 
appreciate the insight that each of you have shared today, as 
well as the variety of opinions that have been voiced by our 
colleagues on the committee. Really my question is centered 
around more specifics. Each of you has touched on at one point 
or another, using different words, about the necessity to 
remain in Afghanistan specifically, but what does that actually 
look like? What does that actually mean when you are talking 
about numbers of troops on the ground? I think Dr. Jones 
mentioned during one of his responses to the questions saying 
that it doesn't necessarily mean that you have tens of 
thousands or over hundreds of thousands of troops that remain 
there.
    I would like to know your thoughts on specifically what 
going forward that looks like and how long that will be 
required in order to achieve the goal that you have stated that 
you feel are important to our national security?
    Mr. Jones. Very briefly, the way I envision this right now, 
one option any way because I think there are a range on the 
table is on the military side, we can talk about civilian 
presence later. The goal I think has got to be to focus on 
training, equipping and advising Afghan national army, Afghan 
national police, and Afghan local police forces, conducting 
direct action operations against high-value targets. And then 
providing some limited enablers such as intelligence, civil 
affairs, military information, support operations.
    Based on a range of estimates, including the size of Afghan 
National Security Forces and others, one could envision, 
depending on allied commitments of forces anywhere between 
8,000 to about 15,000 American forces.
    The question on timing and a lot would depend not just on 
the numbers because I think we get into a numbers game pretty 
quickly. It also depends on the strategy one uses and other 
factors, how you deal with the sanctuary. The sanctuary is a 
key component, should be a key component of any strategy in 
Afghanistan because the leadership structure has not been 
targeted and sits across the border in Pakistan, especially the 
Taliban's command and control node.
    My one last comment along these lines is I think on the 
timeline and exit, I can't put a year there because I think it 
is a conditions-based one that ties in very closely to the 
threat to the U.S. homeland and its interests overseas coming 
from this area. When that threat goes away, I think it is time 
to go.
    Ms. Kagan. I concur. I don't think that there is anyone 
here on the panel who believes that there should be an 
indefinite number of troops committed to Afghanistan 
indefinitely. We are in a process of drawing down, in part 
because of the changes that the Afghan security forces have 
themselves experienced. During our surge, they, too, have 
surged. But it is absolutely vital that our withdrawal of 
forces remains conditions based, based on conditions of the 
ground, that the commanders in Afghanistan have the flexibility 
to bring in the units that they need to hold the bases that 
they need and conduct the logistical support that they need in 
order to do the missions that Dr. Jones has mentioned.
    Therefore, as we look at the drawdown, it is very 
important, really quite vital, that it not happen faster than 
conditions on the ground permit.
    Ms. Gabbard. Thank you. I think it is just important to 
note the distinction. I know there were some comments made that 
militancy does not go away when the U.S. leaves. Car bombs and 
attacks that are still continuing in Iraq, al-Qaeda's presence 
in Syria, I think it is something we can all agree on that the 
threat from al-Qaeda exists, not only in Afghanistan, but in 
other places. And it is one that is based on an ideology, not 
based on a commitment or allegiance to a specific country which 
is why I think it is most necessary for us to stay focused on 
what is the mission at hand, what is the specific threat that 
is facing our country, and recognize forward looking what will 
be required to address that threat, not just in Afghanistan, 
but across the entire regions, stay focused on those 
counterterrorism activities.
    And so I think when we look at that threat as opposed to a 
noble cause of trying to bring stability to an unstable region, 
and essentially acting as a police force or nation building in 
different countries which we would all love to be able to do, 
but because of limited resources and assets, don't have those 
capabilities. Thank you.
    Ms. Ros-Lehtinen. Thank you very much. Mr. Connolly is 
recognized.
    Mr. Connolly. Thank you, Madam Chairman, and thank you for 
holding this hearing. Welcome to our panel.
    I was talking to a nonprofit representative who has been 
doing a lot of work in Afghanistan and one characteristic he 
made was from his point of view once the United States 
withdrawal is met, the deadlines are met, that what is left 
behind is sort of a situation that will muddle along. It is not 
going to collapse. It is not going to look like Saigon in 1975. 
There are some enduring institutional changes that we will have 
helped leave behind that actually will make a positive 
difference and that that is probably the best we are going to 
look for and that is probably what the likely situation is 
going to look like on the ground for some period of time.
    Would you all agree with that characterization?
    Mr. Bergen?
    Mr. Bergen. Basically, yes.
    Mr. Connolly. That is succinct.
    Ms. Ros-Lehtinen. We are not used to that.
    Ms. Kagan. I would disagree with that characterization.
    Mr. Connolly. You would disagree.
    Ms. Kagan. I do. I think that we have made some very 
fundamental changes to the situation in Afghanistan, but I do 
not know that Afghanistan will muddle along. I think that, in 
fact, the potential for rekindling a civil war in Afghanistan, 
for state collapse, for state withdrawal, exists. And our path 
out of Afghanistan can accelerate or decelerate that kind of 
collapse and help to ensure that Afghanistan--to ensure that 
Afghanistan continues to muddle along. We need to make sure 
that there is support to the Afghan Government.
    Mr. Connolly. Dr. Jones.
    Mr. Jones. I think part of the answer to your question 
depends on identifying a handful of key variables that could 
push this in a roughly muddling along in a positive way to very 
badly destabilizing. I would just point to at least three off 
the top of my head. One is the activity of neighbors. Increases 
in weapons, money, other resources from the Iranians, the 
Pakistanis, the Russians, the Indians, and other countries in 
the region could lead this to something very different from 
muddling along. The early 1990s, in my view, in Afghanistan 
similar scenario, was not muddling along. It was deeply 
destabilizing.
    Second, are we talking about a U.S. combat presence ending 
or simply the U.S.--and focusing on train and equip, or does 
the U.S. leave period? What the U.S. does on a military 
perspective, if it stays and does some training versus combat, 
that could vary those outcomes.
    The third, frankly, is the quality of Afghan governance. 
The 2014 election, if that goes badly and you get fracturing 
among say Tajiks and Uzbeks up in the north who do not support 
the direction of the government, will tend to rip the fabric 
apart in ways that I think would be worse than muddling along. 
So the elections, the neighbors, U.S. presence, combat or 
otherwise, I think are several variables that will impact that.
    Mr. Connolly. Yes, Dr. Markey.
    Mr. Markey. I think these are all reasonable concerns. I 
think muddling along should actually be seen as pretty good 
success and muddling along will only happen if a degree of 
resources continue to flow both to the Afghan National Security 
Forces and more broadly to the Afghan state. I mean it is not 
self sufficient. So muddling along, I think, should be seen as 
pretty decent and we should be concerned about some of these 
downside risks.
    Mr. Connolly. Yes, given the alternatives. Two-part 
question real quickly about the Taliban. The same person 
observed part of what will help the muddling along positive 
scenario is actually the intense dislike for any return of the 
Taliban in most of the country and that that is pretty clear.
    Secondly, I wonder what your opinion is about can Taliban 
be negotiated with? Count me a skeptic, but there are those 
that say they could be.
    Mr. Bergen. Yes, and no.
    Mr. Connolly. Thank you. I only have 28 seconds. I really 
appreciate that.
    Dr. Jones, can you match that kind of succinctness?
    Mr. Jones. No.
    Mr. Connolly. We have got a bunch of Calvin Coolidges up 
here, Madam Chair.
    Mr. Jones. Very quickly, the intense dislike, yes. But an 
insurgent group that has outside sanctuary and outside support 
can overcome intense dislike in a country.
    Mr. Connolly. Mr. Bergen's answers, Madam Chairman, remind 
of the story I told about Calvin Coolidge. He is at a dinner 
party where a woman sat next to him, President Coolidge, and 
said you have got this reputation for being so laconic and I 
bet somebody $100 I could get you to say three things. He 
looked at her and said you lose.
    Ms. Ros-Lehtinen. Very good. Thank you, Mr. Connolly.
    Mr. Connolly. Thank you.
    Ms. Ros-Lehtinen. Mr. DeSantis, this is a tough act to 
follow. We need a historical joke.
    Mr. DeSantis. Well, I do appreciate Calvin Coolidge. He is 
a very underrated President, so I thank my colleague from 
Virginia for invoking him.
    In terms of the footprint that you recommend, Dr. Jones, 
and I agree. In terms of having folks there, I think you 
recommended between 8,000 and 12,000. Sometimes people say oh, 
just throw some Special Operations forces in there. But you 
don't just throw Special Operations forces in there. You have 
got to have at least some conventional forces to support them 
and obviously, intelligence and the CIA component as well.
    Where does that put you in terms of what the administration 
has said in terms of numbers? Do they want a total or have they 
left the door open for this type of strategy?
    Mr. Jones. Well, it is unclear right now. They have opened 
the door for numbers, possibly numbers along these lines by 
2014, but the question is for how long? And I think this goes 
back to Mr. Bergen's point earlier. Without a better sense of 
what this means in 2015 or '16 or '17, I think those numbers 
are partly meaningless because locals will look at the longer-
term commitment.
    Mr. DeSantis. Now given the fact that obviously there is a 
lot of things going on in Afghanistan, we probably really 
didn't understand when we went in in 2001. Tribal society, they 
have certain customs that are different from ours. What is kind 
of the best case scenario in terms of what we can reasonably 
expect of an Afghan Government because a lot of constituents 
and Americans will say they really believe that we need to 
fight terrorism, but they think that Afghanistan, like those 
people will just never have a decent government. So can you 
guys just give your assessment on that?
    Mr. Jones. I can very briefly comment. If you look at even 
the most stable period of Afghanistan's history, let us say 
1929 to 1978, government that controlled some key urban areas, 
some key lines of communications on roads, but had tribes, sub-
tribes, and clans involved in adjudicating controlling key 
parts of rural Afghanistan. I think that is your best bet in 
the future, a limited central government and a range of tribal, 
sub-tribe, clan and other actors that continue to influence in 
rural areas.
    Ms. Kagan. I think it is important that the American people 
know that Afghans see Afghanistan as an entity though. And that 
one of our goals in Afghanistan is keeping a united state 
surrounded as it is by unruly neighbors. And that the mythos 
that the Afghans don't want to recognize themselves as a state 
even though they find tribe and clan and locality of prime 
importance is a misconception that Americans impose on Afghans.
    Mr. Bergen. Just to answer that, the first modern Afghan 
state was founded in 1747 so it is an older country than the 
United States and even the Taliban doesn't want to devolve. It 
is a strong nation, but a weak state.
    I think what is realistic is let us look at their 
neighbors. You have Iran which is a theocratic autocracy. You 
have Uzebekistan that boils dissidents alive which is a Soviet-
style regime. And you have Pakistan which has had four military 
coups. So by those standards, Afghanistan is already looking 
reasonably good. And my prognosis, in the 1970s, Afghanistan 
was a tourist destination, so within living memory there is a 
whole different Afghanistan. So it is not dream-a-vision that 
you have somewhere. It is somewhat functional.
    Mr. Markey. I agree with a number of these points, but I 
would actually also focus on our capacity, the Afghan capacity 
to keep together and build up a more successful National 
Security Force. The army, and our ability to keep it together, 
their ability to keep it together and not to see that fracture 
will be very important to national unity. Above and beyond 
these concerns, I mean there will be all kinds of corruption, 
war lordism. I mean these kinds of things can happen, but it 
really falls apart if the one institution of national security 
also collapses.
    So if I were to put my finger on something, that would be 
the thing I would put it on and that is something that I think 
we are capable of helping them along with over a reasonable 
time frame.
    Mr. DeSantis. And then finally, and anyone can take this. 
There was a comment made by someone earlier in the hearing 
about the Taliban, they don't really want to come attack 
America over here, whatever. I guess in your judgment when they 
allowed al-Qaeda to operate, obviously that was a huge--the 
regime got crushed after 9/11. Would they want to work with al-
Qaeda again as the U.S. withdraws? Or is that something that 
they view that as a mistake that they had made, that yes, they 
are Islamic fanatics and they do that, but they didn't have the 
desire to export terrorism. Is that accurate?
    Mr. Jones. I think very briefly it is impossible to 
generalize about the Taliban. The inner Shura has expressed 
some concerns about al-Qaeda, but we see local al-Qaeda 
commanders developing a relationship with local Taliban 
commanders, meaning that part of the answer depends on what 
level of the organization you are talking about.
    Mr. DeSantis. Thank you.
    Ms. Ros-Lehtinen. Thank you very much, Mr. DeSantis. Thank 
you to all the members and all of our wonderful staffers who 
make this look easy, but most especially to the panelists. 
Thank you for excellent testimony and thank you to the audience 
as well. With that, our joint subcommittee is now adjourned.
    [Whereupon, at 3:32 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


         <F-dash>\<n-iden-3><box><natural><natural><variable> 
                     <because><F-dash><Register>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


[Note: Responses to the above questions were not received prior to 
printing.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
